         <
                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

11                                              CLOSEOUT MEMORANDUM

1        Case Number: A02020008                                                                     Page 1 of 1



              We received an allegation that the subject,' plagiarized text from another PI's NSF a w a d into his
              NSF proposal.3 We noted about 60 lines of text in the background section of the subject's proposal
              that were identical to text in the award and none of it had been cited or distinguished fiom text
              original to the subject in the proposal.

              Our review showed that this identical text appeared in a set of four collaborative proposals4fiom
              four institutions submitted a year before the PI's award that included, among several other, the
              subject and the PI. Further, the PI stated in the award that the subject would submit a proposal (the
              one in this case) that would coordinate their joint research work. The identical background text in
              this case is considered shared property by all the PISwho submitted the collaborative proposals.
              There is no substance to the allegation that the subject plagiarized text in the proposal.

              This inquiry is closed and no further action will be taken.




11   '
                       1    Prepared by:   I                  Cleared by:

Ill                        Agent:              Attorney:     Supervisor:    AIGI




         Signature &
            date:
